HHS/OIG-Audit--"Review of Internal Controls Over the Third Party Draft System, Regional Administrative Support Center - Region IV, (A-04-91-00009)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Internal Controls Over The Third Party Draft System, Regional Administrative Support Center - Region
IV," (A-04-91-00009)
March 9, 1992
Complete
Text of Report is available in PDF format (240 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report on the internal controls over the third party draft (TPD) system in the Regional Administrative
Support Center, Division of Finance, Atlanta Georgia estimates that payments of $3.2 million were made through TPDs that
were not within the guidelines of the Department of Treasury or HHS policy. We found that the TPD internal control system
was not documented, the separation of key duties was inadequate, access to TPDs and the supporting documentation was limited
and accountability over blank drafts was not assigned. The ASMB generally agreed with our recommendations and has initiated
actions to implement enhanced internal controls.